DOE/IG-0505




                                 UTILIZATION OF THE DEPARTMENT'S
                                    LOW-LEVEL WASTE DISPOSAL
                                             FACILITIES




                                             MAY 2001




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                              DEPARTMENT OF ENERGY
                                Washington, DC 20585

                                       May 25, 2001



MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on “Utilization of the
                          Department’s Low-Level Waste Disposal Facilities”

BACKGROUND

Since the creation of the Department of Energy’s nuclear weapons complex, large
amounts of low-level waste have been generated as a result of the processes which are part
of the mission of the complex. To date, the Department has disposed of nearly 69 million
cubic feet of this waste at its facilities, and over the next 70 years, plans to dispose of an
additional 358 million cubic feet of low-level waste. In February 2000, the Department
announced that it had developed a hierarchy of preferred options for disposal of the low-
level waste. In order of priority, these were to dispose of low-level waste at:

   •   The site of origin,
   •   The Nevada Test Site or Hanford Site,
   •   Commercial facilities.

Most Department facilities cannot dispose of all the waste they generate on-site, nor can
they store it safely for indefinite periods of time. Storage of waste at generating sites is
designed to be a temporary measure, and it is the Department's goal to permanently
dispose of low-level waste. The objective of this audit was to determine whether the
Department was fully utilizing its disposal capacity at the Nevada and Hanford sites.

RESULTS OF AUDIT

The Department has taken steps to improve its management of low-level waste disposal.
These steps included issuing guidance that provides waste generators the opportunity to
dispose of this waste in a cost-effective manner and implementing a funding policy at
Nevada to make disposal operations more efficient. However, our analysis showed that
over the past two years, the Nevada and Hanford disposal facilities have operated at less
than 50 percent of capacity. In spite of the availability of the unused capacity, the
Department “stored” large amounts of waste at generator sites, and it disposed of some
low-level waste commercially. This approach was inconsistent with the Department’s
determination of preferred disposal alternatives. We found that management had not
developed and implemented a corporate approach to maximize the safe and cost-effective
disposal of low-level waste. Further, management did not have an overall mechanism
for evaluating performance of the low-level waste disposal program. As a result, the
                                                   -2-



Department had not realized the maximum benefit of its $30 million investment for waste
disposal operations at Nevada and Hanford, and for storage operations at certain generator
sites.

We recommended that the Assistant Secretary for Environmental Management develop
and implement a complex-wide program that integrates waste disposal operations. This
would address interest groups’ concerns by ensuring waste is being permanently disposed
and providing an opportunity to equitably distribute waste among all available disposal
sites. In developing and implementing the program, we suggest that this program be fully
coordinated with the newly created National Nuclear Security Administration.

During the course of the audit, we became aware of Congressional concerns regarding the
Department’s program for disposal of low-level waste. These centered around (1) the need
to ensure that disposal fees charged by the receiving sites reflected full life-cycle costs of
operations, and (2) the Department’s plans to dispose of large quantities of low-level waste
from across the complex at the Nevada site. The concerns regarding disposal at Nevada
were highlighted in a January 2001 letter from members of the Nevada Congressional
delegation to the Secretary of Energy. The delegation's comments, as well as those which
came to our attention from the general public, reflect significant policy and regional impact
issues. While we were sensitive to these concerns, the focus of the audit was on ensuring
the most cost-effective and efficient disposal of over 358 million cubic feet of low-level
waste by optimizing the use of existing Departmental facilities.

MANAGEMENT REACTION

Management concurred with our findings and recommendations. The Department agreed
to take steps to improve disposal efficiency, including holding a workshop between
shipping and receiving sites to develop a strategy for timely and effective use of its waste
disposal facilities. However, management stated that the risks posed by long-term storage
of low-level waste are not as high as many other challenges facing the Environmental
Management program and, as such, it prioritizes funding for higher risk activities first.
Management’s comments have been included in their entirety in Appendix 5.


Attachment

cc: Administrator, National Nuclear Security Administration
UTILIZATION OF THE DEPARTMENT'S LOW-LEVEL WASTE
DISPOSAL FACILITIES


TABLE OF
CONTENTS


                Overview

                Introduction and Objective .................................................................... 1

                Conclusions and Observations .............................................................. 1


                Use of Low-Level Waste Disposal Facilities

                Details of Finding .................................................................................. 3

                Recommendations and Comments ........................................................ 8


                Appendices

                1. Disposition Path of Low-Level Waste ............................................ 9

                2. Age of Low-Level Waste Inventory .............................................. 10

                3. Scope and Methodology ............................................................... 11

                4. Prior Audit Reports........................................................................ 13

                5. Management Comments ................................................................ 14
Overview

INTRODUCTION AND   During the Cold War, the nuclear weapons complex generated large
OBJECTIVE          amounts of low-level waste that typically contained small amounts of
                   radioactivity. To date, the Department of Energy (Department) has
                   disposed of nearly 69 million cubic feet of this waste at its disposal
                   facilities throughout the complex. Over the next 70 years, the
                   Department plans to dispose of an additional 358 million cubic feet.1
                   One of the Department's primary goals is to safely and expeditiously
                   clean up sites across the complex where nuclear weapons activities
                   have taken place.

                   The Department established the Nevada Test Site (Nevada) and the
                   Hanford Site (Hanford) as the preferred options for disposing of low-
                   level waste that could not otherwise be disposed of at the site of origin.
                   Together, Nevada and Hanford can dispose of over 1.6 million cubic
                   feet of this waste annually. The Department plans to dispose of more
                   than 32 million cubic feet at these facilities through 2070. According to
                   the Department’s study, Nevada and Hanford were selected because of
                   perceived low impacts to human health, operational flexibility, and
                   relative implementation cost. Also, the geology of Nevada and Hanford
                   was viewed to be inherently beneficial to environmental safety and
                   health, and both facilities have expansion capabilities to handle large
                   amounts of waste. Using two disposal facilities allows waste generators
                   to have alternatives for disposal should one of the facilities be shut
                   down. Departmental policy sets on-site disposal and disposal at Nevada
                   and Hanford as priorities, but allows for commercial disposal if it is to
                   the benefit of the Department as a whole.

                   The objective of the audit was to determine whether the Department
                   was fully utilizing annual disposal capacity at Nevada and Hanford.

CONCLUSIONS AND    Over the past two years, disposal facilities at Nevada and Hanford have
OBSERVATIONS       operated at about 48 percent of capacity. Although it did not fully
                   utilize existing capacity at these sites, the Department stored large
                   amounts of waste as a temporary measure at generator sites and
                   disposed of some waste commercially. This occurred because the
                   Department did not have a comprehensive approach to maximize waste
                   disposal.




                   ________________
                   1
                       See Appendix 1 for the planned disposition path of this waste.


Page 1                                                               Introduction and Objective/
                                                                  Conclusions and Observations
         Individual sites operated independently of one another. Specifically:

             •   Disposal decisions were made at the field level;
             •   Disposal sites did not have standardized quality assurance
                 processes; and
             •   Performance measures relevant to effective disposal operations
                 were not developed.

         As a result, the Department did not realize the maximum benefit from
         its $30 million investment for certain waste disposal operations at
         Hanford and Nevada and storage operations at generator sites.
         Furthermore, risks to workers and the environment from stored waste
         were increased. In addition, without useful performance measures, the
         Department was unable to monitor the effectiveness of its disposal
         operations. We recommended that the Assistant Secretary for
         Environmental Management develop and implement a complex-wide
         low-level waste disposal program that integrates waste disposal
         operations.

         The Department has taken some steps to improve its management of
         low-level waste disposal. It issued Department Order 435.1 in 1999
         and a Record of Decision (ROD) in 2000 as part of its Final Waste
         Management Programmatic Environmental Impact Statement. These
         documents have provided the Department's waste generators with the
         opportunity to ship their aging waste inventories to multiple sites and
         included guidance to dispose of waste in a cost-effective manner. The
         Department also initiated a change in the disposal fee policy at Nevada
         that should streamline disposal operations. In November 2000, Nevada
         implemented a “flat rate” disposal fee in which waste generators paid
         an up-front fee to Nevada that allowed disposal of a range of waste.
         Nevada believed that this proposal would expedite implementation of
         the ROD, stabilize disposal operations, and reduce disposal costs to the
         complex. However, as the findings in the report illustrate, more needs
         to be done to improve waste disposal.

         Management should consider the issues discussed in this report when
         preparing the yearend assurance memorandum on internal controls.


                                                   Signed
                                        Office of Inspector General



Page 2                                         Conclusions and Observations
USE OF LOW-LEVEL WASTE DISPOSAL FACILITIES

Disposal Facility       In the last two years, disposal facilities at Nevada and Hanford operated
Use                     at about 48 percent of capacity. In Fiscal Years (FY) 1999 and 2000,
                        the Department disposed of only 819,449 and 747,974 cubic feet of
                        waste, respectively. In essence, the Department paid for services and
                        resources at Nevada and Hanford to support the 1.6 million cubic foot
                        annual maximum capacity that was not fully used.

                        Even though the disposal facilities were not fully utilized, the
                        Department stored large amounts of waste at generator sites and
                        disposed of some waste commercially. The Department disposed of
                        206,000 cubic feet2 of waste at a commercial facility during FYs 1999
                        and 2000 and stored over 2 million cubic feet during FY 2000. Oak
                        Ridge, Fernald, Argonne National Laboratory, and Rocky Flats alone
                        have more than 2 million cubic feet of waste in storage, 918,000 of
                        which is over 5 years old.3 In some cases, the waste is more than
                        20 years old, creating potential safety risks to workers and the
                        environment. In addition, officials at the Oak Ridge Reservation expect
                        to run out of storage capacity in FY 2002.

Waste Disposal Policy   In FY 1988, the Department issued Order 5820.2A that required low-
                        level waste to be disposed of at the site where the waste was generated,
                        if practical, or at another Department disposal facility. This
                        requirement was reiterated in FY 1999 in Department Order 435.1,
                        which also noted that if the Department's capabilities for waste disposal
                        were not practical or cost-effective, exemptions to use non-Department
                        facilities for disposal would be granted given specified criteria. The
                        Department issued the Final Waste Management Programmatic
                        Environmental Impact Statement (Impact Statement) in 1997 which
                        identified a number of alternative disposal sites across the complex.

                        In February 2000, the Department issued the ROD as part of the Impact
                        Statement which concluded that Nevada and Hanford were available
                        sites to dispose of low-level waste from any Department site. The ROD
                        also provided that low-level waste be disposed of at the site of origin to
                        the extent practicable and allowed for continued use of commercial
                        disposal facilities. The ROD further established preferred options for




                        ______________________
                        2
                            This excludes 2.9 million cubic feet of waste disposed of commercially using rail
                            shipments because Nevada and Hanford are unable to accept shipments by rail.
                        3
                            See Appendix 2 for the age of low-level waste by site.


Page 3                                                                                   Details of Finding
                  disposal of low-level waste. Specifically, sites, in order of priority,
                  were to dispose of low-level waste at:

                      •   The site of origin,
                      •   Nevada or Hanford,
                      •   A commercial facility.

Low-Level Waste   The Department did not have in place a complex-wide system to ensure
Program           that the most effective disposal decisions for the Department were
                  made. Specifically, disposal decisions were made at the field level, no
                  standardized procedures for disposal facility quality assurance were in
                  place, and, consistent, useful performance measures were not in place to
                  monitor the efficiency of disposal operations.

                           Field Level Decisions Did Not Ensure Optimal Use of
                                            Disposal Facilities

                  The Department’s current organizational and funding structure placed
                  the responsibility for decisions regarding low-level waste disposition at
                  the field office level. However, the audit disclosed that waste managers
                  at the field office level did not possess the necessary Departmentwide
                  information to make decisions that benefited the entire Department
                  rather than their individual sites.

                  For example, waste generators independently conducted cost-benefit
                  analyses to determine where and when to ship and dispose of low-level
                  waste. The analyses considered “disposal fees” charged by Nevada and
                  Hanford. However, we found that the disposal fees were not based
                  solely on the incremental cost of disposal. Rather, they included costs,
                  including fixed costs, that the Department would bear at the Nevada
                  and Hanford sites under any scenario. For example, officials at Nevada
                  estimated that a significant portion of the disposal fee included
                  overhead that would remain even if disposal operations were closed.
                  This shortcoming had the effect of artificially increasing apparent
                  disposal costs at Nevada and Hanford.

                  In September 1998, the Office of Inspector General issued Report
                  DOE/IG-0426, Disposal of Low-Level and Low-Level Mixed Waste and
                  recommended that the Department periodically evaluate sites’
                  implementation of the Departmentwide strategy to ensure disposal
                  decisions are made in a cost-effective manner. Although disposal at
                  Department sites has historically been preferred, the ROD had not
                  established Nevada and Hanford as preferred alternatives at the time of
                  our 1998 report. In a related report, the General Accounting Office

Page 4                                                                   Details of Finding
         concluded that disposal fees could artificially shift priorities and were
         sensitive to increases or decreases in disposal volumes. It further
         pointed out that waste generators considered only impacts to their own
         budgets and not impacts to the Department as a whole when making
         waste disposal decisions.4

         Waste generators also did not adequately justify the use of commercial
         disposal facilities. The Impact Statement noted that disposal decisions
         should consider factors in addition to cost, including cumulative
         environmental impact, ability to mitigate adverse impacts, and
         equitable distribution of waste between sites. However, after
         reviewing several exemption requests developed by waste generators to
         use commercial disposal, we found that the waste generators justified
         using commercial facilities based only on cost to the generator and the
         ability to accept certain waste streams without delay. Had the waste
         generators considered the other factors prescribed in the Impact
         Statement, the use of the Department’s disposal facilities may have
         become the alternative of choice for low-level waste disposal.

                             Dissimilar Quality Assurance Processes

         The Department’s Nevada and Hanford disposal facilities used
         significantly different quality assurance processes for certifying a
         generator as an approved shipper and for ensuring that the generators
         comply with existing waste acceptance criteria. These differences
         resulted in waste generators shipping to commercial disposal facilities
         rather than Nevada and Hanford, or delaying waste shipments pending
         acceptance by Nevada as a waste generator. We found that an
         approved waste generator at Hanford could not automatically use
         Nevada for disposal. This limited the waste generators’ options for
         disposal. For example, several waste generators that had been using
         Hanford to dispose of waste expressed a preference to have the option
         to use Nevada, as well. However, even though they had been approved
         by Hanford, these generators were still required to go through Nevada's
         quality assurance process including incurring the preparation costs and
         waiting up to 18 months for approval before the first shipment could be
         made. In a classic example of a lack of a corporate policy, if Nevada
         and Hanford had a standardized quality assurance process or had
         established a reciprocal agreement to rely on each other's experiences,
         these costs and delays could have been avoided. In addition, if either

         _______________________
         4
              Low-Level Radioactive Wastes: Department of Energy Has Opportunities to
             Reduce Disposal Costs (GAO/RCED-00-64, April 2000)



Page 5                                                                Details of Finding
                     disposal facilities had to shut down, a lack of standardized quality
                     assurance processes effectively prevents waste generators from
                     immediately disposing of waste at the remaining disposal facility as
                     contemplated by the ROD.

                                        Performance Measures Not In Place

                     The Department did not establish useful performance measures in
                     accordance with the Government Performance and Results Act relevant
                     to effective disposal operations. In our view, given the Department's
                     policy of maintaining both Nevada and Hanford as disposal facilities,
                     the Department's performance measures should include measures to
                     ensure that Nevada and Hanford were used as contemplated in the
                     ROD. Although the Department identified measures for disposing of
                     waste in FY 2000, these measures did not include specifics relating to
                     maximizing usage of Departmental disposal capacity by waste
                     generators.

                     The audit disclosed, as well, that individual disposal sites did not have
                     useful performance measures. Neither Nevada nor Hanford were able
                     to evaluate their level of effort for disposal operations against the actual
                     volumes of waste disposed. For example, the FY 2000-2001 Nevada
                     Strategic Plan did not contain any waste management performance
                     measures related to comparing inputs to outputs. In addition, the FY
                     1999 Richland Operations Office Strategic Plan included performance
                     measures related to the disposal of waste, but they did not associate the
                     amount of waste disposed to costs incurred in the program,
                     undermining the effect of these measures.

Inefficient Use of   The Department has incurred inefficiencies as a result of under utilizing
Disposal Funds       its disposal capacities. In FY 2000, the Department spent about
                     $15 million for about 1.6 million cubic feet of capacity, but used only
                     747,974 cubic feet, or about 46 percent. At the same time, the
                     Department paid $450,000 to dispose of waste commercially and spent
                     over $15 million to store more than 2.1 million cubic feet of waste at
                     generator sites.

                     Our analysis of the situation Departmentwide suggests that eliminating
                     the disposal fee and funding the disposal operation directly may be
                     beneficial. Direct funding would stabilize funding for disposal
                     operations at the waste generators rather than forcing it to compete with
                     other activities. In addition, direct funding would allow disposal sites
                     to focus on assisting waste generators with expeditious disposal of low-


Page 6                                                                      Details of Finding
         level waste. It would also ensure that disposal sites remained
         operational through changes in disposal volumes throughout the year.
         A 1997 contractor study on integration opportunities5 identified several
         benefits to eliminating the disposal fee and direct funding disposal
         operations including savings in overall Departmental disposal costs.
         The Nevada Operations Office has also studied this issue and noted that
         advantages of funds being specifically designated for disposal activities
         include a higher likelihood that resources would be available for use by
         all waste generators. However, the direct funding approach is not
         currently being used.

         The Department is also facing potential health risks by storing aging
         low-level waste. To address disposition of the low-level waste, in
         1999, the Department established the policy that waste with an
         identified path to disposal should not be stored longer than one year.
         However, we identified over 900,000 cubic feet of low-level waste
         included in storage at the waste generator sites visited that is more than
         5 years old, and in some cases, waste in inventory was over 20 years
         old. Waste generators typically disposed of newly generated waste
         before older waste because the older waste required more handling.

         Older waste in storage can leak in the storage areas and require
         recharacterization and repackaging. This additional handling not only
         increases costs to the Department, but also increases worker exposure
         to the health risks associated with waste handling. The Office of
         Environmental Management has reported that vulnerabilities exist
         regarding the storage of low-level waste and result in delayed cleanup
         progress and increased risk to workers and the environment. Storage
         costs could be better used to dispose of this waste and alleviate
         unacceptable storage conditions throughout the Department that could
         lead to releases of radioactive materials.




         _________
         5
           This report, Contractor Report to the Department of Energy on Opportunities for
         Integration of Environmental Management Activities Across the Complex
         (Predecisional Draft), was originally issued in March 1997, was later reissued in May
         1997 as a discussion draft, but was never issued as a final report.

Page 7                                                                 Details of Finding
RECOMMENDATIONS    To facilitate the cost-effective disposal of low-level waste, we
                   recommend that the Assistant Secretary for Environmental
                   Management:

                   1. Establish an integrated complex-wide disposal program to ensure
                      the optimal use of disposal facilities. Specifically:

                           • Centralize funding from the Environmental Management
                             aggregate budget and direct fund Nevada and Hanford.

                           • Ensure that disposal capacities at Nevada and Hanford
                             correspond to the amounts of waste being shipped by waste
                             generators.

                           • Include adequate controls to ensure funds are used for
                             disposal operations.

                           • Compare full life-cycle cost estimates for disposal facilities
                             and waste generators to ensure optimal use of on-site, off-
                             site, and commercial facilities.

                   2. Develop standard waste acceptance criteria to allow for waste
                      generators to readily use either Nevada or Hanford.

                   3. Establish performance measures for the efficient use of Nevada and
                      Hanford disposal operations.


MANAGEMENT         Management concurred with our findings and recommendations. The
REACTION           Department agreed to take steps to improve disposal efficiency,
                   including holding a workshop between shipping and receiving sites to
                   develop a strategy for timely and effective use of its waste disposal
                   facilities. Management's comments have been included in their entirety
                   in Appendix 5.


AUDITOR COMMENTS   Planned corrective actions were responsive to our recommendations.




Page 8                                                                  Recommendations
                                                                           and Comments
Appendix 1

                             DISPOSITION PATH OF LOW-LEVEL WASTE


The Department plans to dispose of significant quantities of low-level waste over the next several decades.
Due to the volumes of waste expected to be disposed of in the future, it is imperative that the Department
identify and implement efficiencies related to disposal of low-level waste. The Department's current plans
for disposing of this waste are shown in Table 1 below.


                  Table 1. Estimated Volume and Disposition Path
                           For Low-Level Waste Through 2070.

                                                                            (000s cubic feet)
                  Projected Disposition                                               LLW          % of Total

                  Existing or Planned On Site Disposal Facilities                     270,751             75%
                  Waste Operations Disposal Facilities                                 42,360             12%
                  Commercial Disposal                                                  35,300             10%
                  Disposition To Be Determined                                          9,884              3%
                                                Total                                 358,295             100%

                  Source: The Current and Planned Low-Level Waste Disposal Capacity Report, Revision 2 (December 2000).




Page 9                                                                                                           Disposition Path of
                                                                                                                  Low-Level Waste
Appendix 2

                                AGE OF LOW-LEVEL WASTE INVENTORY


The Department is facing potential health risks by storing aging low-level waste. The longer waste remains
in inventory, the higher the risk of leakage and possible radiation exposure to workers and the environment.
Also, stored waste results in higher handling costs and delayed cleanup progress. The Department's current
low-level waste inventory amounts are shown in the table below.


                 Table 2. Age of Low-Level Waste Inventory
                            (all amounts in cubic feet)


                  Age in Yrs 1              0-5        6-10       11-15       16-20        >20
                  Argonne East           10,820       1,838         511           1           7
                  Fernald               274,294     234,139     112,723       8,598         496
                  Oak Ridge             614,423     436,711      16,362       1,752       1,517
                  Rocky Flats           237,004      82,217      21,049          67           7
                              Totals 1,136,541      754,905     150,645      10,418       2,027




                  1
                      Ages in Table 2 reflect inventory at or near fiscal yearend 2000. These
                      amounts may not reflect the actual age as of the date of this report.
                      Management provided updated amounts for Rocky Flats as of March 27, 2001,
                      but those amounts are not reflected here.




Page 10                                                                                           Age of Low-Level
                                                                                                   Waste Inventory
Appendix 3

SCOPE         This audit was performed from May 2000 to December 2000 at
              Department Headquarters in Washington, DC, and Germantown,
              Maryland. Disposal site visits were made to the Nevada and Richland
              Operations Offices. Generator site visits were made to the Rocky Flats
              and Ohio Field Offices, the Chicago Operations Office, and the Oak
              Ridge Reservation.

              The scope of our audit was limited to the transfer and subsequent
              disposal of low-level waste between Departmental sites and a
              commercial disposal facility.


METHODOLOGY   To accomplish our audit objective we:

              •   Reviewed prior Office of Inspector General reports and General
                  Accounting Office reports to identify concerns associated with
                  waste transfer and disposal throughout the Department.

              •   Reviewed reports issued by other Departmental programs to
                  identify concerns related to our audit and determined whether
                  actions were taken by the responsible program to correct any
                  problems identified in these reports.

              •   Obtained and reviewed applicable Departmental directives for
                  disposing of low-level waste.

              •   Held discussions with Office of Environmental Management
                  officials regarding the process used by the Department to dispose of
                  low-level waste.

              •   Determined if the Department established performance measures in
                  accordance with the Government Performance and Results Act to
                  measure the effectiveness of the waste disposal operations.

              We conducted the audit in accordance with generally accepted
              Government auditing standards for performance audits, and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed internal controls and performance with regard to the process
              used by the Department to transfer and dispose of low-level waste at




Page 11                                                    Scope and Methodology
          off-site disposal facilities. Because our review was limited, it would
          not necessarily have disclosed all internal control deficiencies that may
          have existed at the time of our audit. We relied on computer-processed
          data to accomplish our audit objective. We performed limited test work
          of data reliability during our audit and determined that we could rely on
          the computer-processed data.

          The Office of Environmental Management waived an exit conference.




Page 12                                                Scope and Methodology
Appendix 4


                                 RELATED PRIOR AUDIT REPORTS

Disposal of Low-Level and Low-Level Mixed Waste, (DOE/IG-0426, September 1998). The Department
did not dispose of low-level and low-level mixed waste as cost-effectively as possible. The Office of
Inspector General reported that the Department could have saved $5.3 million in disposal costs for low-
level waste between FYs 1993 and 1996. In addition, the Department built low-level waste disposal
facilities at Savannah River and Oak Ridge at a cost of $27.1 million even though off-site disposal would
have been more cost-effective.

Low-Level Radioactive Wastes: Department of Energy Has Opportunities to Reduce Disposal Costs,
(GAO/RCED-00-64, April 2000). The General Accounting Office concluded that the Department does not
have complete, comparable, and consistent information on the life-cycle costs of its disposal facilities so
that accurate cost comparisons can be made. The General Accounting Office also reported that disposal
fees were not comparable and consistent between disposal sites. Charging disposal fees may also reduce
efficiencies at some waste-generating sites. In addition, the General Accounting Office noted that disposal
decisions were made with site specific budgetary interests.




Page 13                                                                               Prior Audit Reports
Appendix 5




Page 14      Management Comments
Page 15   Management Comments
                                                                              IG Report No.: DOE/IG-0505

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer
    friendly and cost effective as possible. Therefore, this report will be available
       electronically through the Internet at the following alternative addresses:


             Department of Energy Office of Inspector General Home Page
                               http://www.ig.doe.gov


           Your comments would be appreciated and can be provided on the
                  Customer Response Form attached to the report.
